No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

JOSE ANDRES VERA-GUTIERREZ,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

APPENDIX TO PETITION FOR A WRIT OF CERTIORARI

JORDAN S. KUSHNER
Counsel of Record
Attorney for Petitioner
431 South 7th Street
Suite 2446
Minneapolis, MN 55415
(612) 288-0545

INDEX
Opinion of Eighth Circuit Court of Appeals, filed July 7, 2020

1A

Order denying petition for rehearing en banc or rehearing,
filed August 25, 2020

9A

Order Denying Motion for New Trail, filed 8/27/2018

10A

Government Trial Exhibit 113

15A

Government Trial Exhibit 114

24A

Government Trial Exhibit 125

29A

Government Trial Exhibit 97

36A

United States Court of Appeals
For the Eighth Circuit
___________________________
No. 19-1025
___________________________
United States of America
lllllllllllllllllllllPlaintiff - Appellee
v.
Jose Andres Vera-Gutierrez
lllllllllllllllllllllDefendant - Appellant
____________
Appeal from United States District Court
for the District of Minnesota
____________
Submitted: February 12, 2020
Filed: July 7, 2020
____________
Before LOKEN, BENTON, and KELLY, Circuit Judges.
____________

BENTON, Circuit Judge.
A jury convicted Jose Andres Vera-Gutierrez of conspiracy to possess with
intent to distribute 500 or more grams of methamphetamine, in violation of 21 U.S.C.
§ § 841(a)(1), 841(b)(1)(A), and 846. He was sentenced to 300 months in prison. On
appeal, Vera-Gutierrez challenges the admission of three exhibits at trial and his
sentence. Having jurisdiction under 28 U.S.C. § 1291, this court affirms.
Appendix 1A
Appellate Case: 19-1025

Page: 1

Date Filed: 07/07/2020 Entry ID: 4930883

I.
In 2017, the government indicted Vera-Gutierrez, Felipe Castro, Jr., and
Maribel Torres for the conspiracy. Castro, a co-defendant, pleaded guilty and
testified against Vera-Gutierrez. Vera-Gutierrez and Torres went to trial. At trial,
there were 124 exhibits, including photographs, maps, and transcripts of 110 phone
calls between the three defendants. The jury found Vera-Gutierrez guilty.
Vera-Gutierrez moved for a new trial based on admission of spreadsheets of
phone calls between the members of the conspiracy, and maps showing cell-phone
locations—offered without the underlying data from the phone companies or a witness
to authenticate the data. The agent who made the maps and the spreadsheets was
available for questioning at trial. On direct, the agent testified he created the exhibits
based on data from mobile phone carriers, specifically testifying they were “true and
accurate.” Vera-Gutierrez objected to “foundation” as to one exhibit (113), and
“foundation” and “hearsay” as to two exhibits (114 and 125). The district court1
overruled the objections. On cross-examination, the agent was not asked about these
exhibits. The district court denied the motion for new trial.
According to the presentence report, the sentencing guidelines range was 360
months to life imprisonment. Vera-Gutierrez objected to a two-level enhancement for
obstruction of justice and requested a downward variance. The district court applied
the enhancement but did grant a downward variance, sentencing Vera-Gutierrez to 300
months.
He appeals, arguing the district court erred by (1) admitting the spreadsheets
and maps without authentication or the underlying data; (2) applying the enhancement
for obstruction of justice; and (3) giving an unreasonable sentence.
1

The Honorable Wilhelmina M. Wright, United States District Judge for the
District of Minnesota.
-2Appendix 2A
Appellate Case: 19-1025

Page: 2

Date Filed: 07/07/2020 Entry ID: 4930883

II.
This court reviews for abuse of discretion rulings about the admission of
evidence, “affording deference to the district judge who saw and heard the evidence.”
United States v. Melton, 870 F.3d 830, 837 (8th Cir. 2017). Evidentiary rulings
“should only be overturned if there was a clear and prejudicial abuse of discretion.”
United States v. McCorkle, 688 F.3d 518, 521 (8th Cir. 2012). “An erroneous
evidentiary ruling is harmless, however, if it did not have a substantial influence on
the jury’s verdict.” United States v. Adejumo, 772 F.3d 513, 525 (8th Cir. 2014). If
the error is harmless, this court “need not decide whether the district court erred when
it admitted the summary charts into evidence.” United States v. Spires, 628 F.3d
1049, 1053 (8th Cir. 2011) (holding error was harmless in admitting summaries of call
records of three phones when the record contained additional relevant evidence and
consistent testimony of defendant’s ex-associates).

Exhibit 113 is a chart showing records of all contacts between phone numbers
identified with Vera-Gutierrez, Castro, and another co-conspirator, Everado CotaPreciado over a 30-day period. The chart lists the date, time, duration, caller, and
receiver of each call. Vera-Gutierrez argues that this chart was essential to the
government’s case, claiming it was the “only evidence” of communication between
Vera-Gutierrez and Cota-Preciado, providing “important corroboration” of the
government’s allegations of frequent contacts between the co-conspirators.

A wiretap of Castro’s phone captured 278 of the 361 contacts listed in the chart.
Castro testified at length about Vera-Gutierrez’s involvement in the conspiracy,
including that he connected Castro and Cota-Preciado for the purpose of selling drugs.
Castro also testified to the meaning of wiretapped conversations, indicating parts
where Vera-Gutierrez and Castro discussed a plan to bring the drugs to Minnesota,
where to store them, and how much they might sell for. Vera-Gutierrez testified to the
-3Appendix 3A
Appellate Case: 19-1025

Page: 3

Date Filed: 07/07/2020 Entry ID: 4930883

contrary, claiming he never participated with Castro in his dealings with drugs and that
the wiretapped phone conversations were instead about selling cars and job
opportunities. The jury is entitled to weigh the testimony of both Castro and VeraGutierrez, assessing for themselves the credibility of a cooperating witness. See
United States v. Whitlow, 815 F.3d 430, 436 (8th Cir. 2016) (“We have repeatedly
upheld jury verdicts based solely on the testimony of co-conspirators and cooperating
witnesses, noting that it is within the province of the jury to make credibility
assessments and resolve conflicting testimony.”).

Vera-Gutierrez emphasizes that his contacts with Cota-Preciado were not
captured by the wiretap. However, even for these contacts, Vera-Gutierrez himself
testified about multiple conversations with Cota-Preciado. Vera-Gutierrez denied he
ever discussed drugs with Cota-Preciado, claiming that the conversations were about
selling cars and job opportunities. Vera-Gutierrez acknowledges the conversations,
not disputing the date, time, duration, caller, or receiver of each call. Additional
evidence that Cota-Preciado knew Vera-Gutierrez was presented in a wiretapped
phone call about drug money, where Cota-Preciado mentions Vera-Gutierrez by name.
The record, other than Exhibit 113, contains substantial contact between VeraGutierrez and his co-conspirators. Even if admission of Exhibit 113 were in error for
lack of foundation2, any error was harmless.

Exhibit 114 has five maps with cell tower information showing travel times and
locations of Castro; Exhibit 125 has four maps with cell tower information showing
travel times and locations of Cota-Preciado. Vera-Gutierrez argues that these were
essential to the government’s case because they “corroborate” government allegations
2

Vera-Gutierrez did not object as to hearsay for Exhibit 113, so his arguments
about hearsay are not persuasive. See United States v. Morrissey, 895 F.3d 541, 554
(8th Cir. 2018) (holding hearsay objections not raised at trial were forfeited).
-4Appendix 4A
Appellate Case: 19-1025

Page: 4

Date Filed: 07/07/2020 Entry ID: 4930883

about Castro and Cota-Preciado’s meetings to exchange drugs. He argues that without
these maps, the government would lack “credible evidence” that Castro and CotaPreciado physically met to carry out drug exchanges, or that Cota-Preciado went to
Vera-Gutierrez’s house after a failed drug delivery.

Like Exhibit 113, the contents of Exhibits 114 and 125 duplicate other evidence
and testimony. Castro testified about his trip to Minnesota to deliver the drugs,
mentioning the specific stops identified in Exhibit 114. Castro also detailed physical
meetings between Cota-Preciado and himself. Matching this testimony, the wiretaps
of Castro’s phone confirm the dates and locations. Torres testified to Cota-Preciado’s
locations as well. Finally, a Task Force Officer testified he drove by Vera-Gutierrez’s
residence and observed Cota-Preciado’s vehicle parked outside. Even if admission of
Exhibits 114 and 125 were in error, any error was harmless. See United States v.
Marrowbone, 211 F.3d 452, 455 (8th Cir. 2000) (“An erroneous evidentiary ruling
does not [a]ffect a substantial right and is harmless error if, after reviewing the entire
record, we determine that the error did not influence or had only a slight influence on
the verdict.”).

III.

Vera-Gutierrez argues that the district court erred by applying an enhancement
for obstruction of justice. This court reviews for clear error factual findings
supporting an obstruction of justice enhancement. United States v. Abdul-Aziz, 486
F.3d 471, 478 (8th Cir. 2007). If a defendant willfully obstructs or impedes the
administration of justice, the sentencing guidelines call for an increase of two levels.
See U.S.S.G. § 3C1.1 (enhancement applies when the obstructive conduct relates to
the defendant’s offense of conviction and any relevant conduct or a closely related
offense). “An attempt to intimidate or threaten a witness, even if unsuccessful, is
-5Appendix 5A
Appellate Case: 19-1025

Page: 5

Date Filed: 07/07/2020 Entry ID: 4930883

sufficient to sustain a two-level enhancement for obstruction of justice.” United
States v. Thompson, 210 F.3d 855, 861 (8th Cir. 2000). “The district court has broad
discretion to apply section 3C1.1 to a wide range of conduct.” United States v.
Collins, 754 F.3d 626, 629 (8th Cir. 2014).

Here, Castro testified that before trial, Vera-Gutierrez approached him at a
market, telling him he did not want to know what would happen if he testified. Castro
testified he felt threatened and frightened by this statement. The district court
specifically found, “Mr. Castro’s testimony is credible as to this issue [the threat].”
“[A] district court’s assessment of a witness’s credibility is almost never clear error
given that court’s comparative advantage at evaluating credibility.” United States v.
Sandoval-Sianuqui, 632 F.3d 438, 443 (8th Cir. 2011). See United States v. Harris,
493 F.3d 928, 932 (8th Cir. 2007) (noting the district court’s “assessment of witness
credibility is virtually unassailable on appeal”).

The district court did not err in applying an obstruction enhancement for
threatening a witness. See United States v. Nunn, 940 F.2d 1128, 1130 (8th Cir.
1991) (implicit telephone threat to a potential witness was obstruction of justice).

IV.

Vera-Gutierrez argues that his sentence of 300 months was substantively
unreasonable. This court reviews the imposition of sentences for abuse of discretion,
whether inside or outside the guidelines range. United States v. Feemster, 572 F.3d
455, 461 (8th Cir. 2009) (en banc). When “the sentence imposed is within the
advisory guideline range, we accord it a presumption of reasonableness.” Harris, 493
F.3d at 932, citing Rita v. United States, 551 U.S. 338, 347 (2007). When a district
-6Appendix 6A
Appellate Case: 19-1025

Page: 6

Date Filed: 07/07/2020 Entry ID: 4930883

court sentences a defendant below the advisory guidelines range, “it is nearly
inconceivable that the court abused its discretion in not varying downward still
further.” United States v. Anwar, 880 F.3d 958, 973 (8th Cir. 2018). Here, the district
court varied downward to a sentence of 300 months, from a range of 360 months to
life.

“A district court abuses its discretion when it (1) fails to consider a relevant
factor that should have received significant weight; (2) gives significant weight to an
improper or irrelevant factor; or (3) considers only the appropriate factors but in
weighing those factors commits a clear error of judgment.” Feemster, 572 F.3d at
461. This court does not require a “mechanical recitation” of the factors. Id. “Rather,
it simply must be clear from the record that the district court actually considered the
§ 3553(a) factors in determining the sentence.” Id.

Here, the district court carefully considered the § 3553(a) factors, specifically
citing the seriousness of the offense; the role Vera-Gutierrez played in connecting the
drug courier and the meth supplier, and remaining in contact and involved during the
conspiracy; the need to adequately deter both Vera-Gutierrez and others from similar
conduct; the possibility of providing care, treatment, and training to Vera-Gutierrez;
and the desire to avoid unwarranted disparities between Vera-Gutierrez’s sentence and
sentences of defendants with similar records found guilty of similar conduct (including
Castro). The district court carefully discussed the mitigating factors presented by
Vera-Gutierrez, including his difficult childhood and background, gainful
employment, family, and impact in his community, accounting for these factors in
sentencing.

The district court did not abuse its discretion in varying downward from the
guidelines.
-7Appendix 7A
Appellate Case: 19-1025

Page: 7

Date Filed: 07/07/2020 Entry ID: 4930883

*******

The judgment is affirmed.
_____________________________

-8Appendix 8A
Appellate Case: 19-1025

Page: 8

Date Filed: 07/07/2020 Entry ID: 4930883

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1025
United States of America
Appellee
v.
Jose Andres Vera-Gutierrez
Appellant

______________________________________________________________________________
Appeal from U.S. District Court for the District of Minnesota
(0:17-cr-00194-WMW-3)
______________________________________________________________________________
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
August 25, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appendix 9A
Appellate Case: 19-1025

Page: 1

Date Filed: 08/25/2020 Entry ID: 4948909

CASE 0:17-cr-00194-WMW-TNL Document 212 Filed 08/27/18 Page 1 of 5

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

United States of America,

Case No. 17-cr-0194(3) (WMW/TNL)
Plaintiff,
ORDER DENYING MOTION FOR
NEW TRIAL

v.
Jose Andres Vera-Gutierrez,
Defendant.

On June 20, 2018, a jury found Defendant Jose Andres Vera-Gutierrez guilty of
conspiracy to possess with intent to distribute 500 grams or more of a mixture or substance
containing methamphetamine, in violation of Title 21, United States Code, Sections
841(a)(1), 841(b)(1)(A), and 846. Vera-Gutierrez now moves for a new trial, arguing that
the admission of three summary exhibits in evidence over his objections deprived him of a
fair trial. (Dkt. 198.) For the reasons addressed below, the Court denies Vera-Gutierrez’s
motion.
“Upon the defendant’s motion, the court may vacate any judgment and grant a new
trial if the interest of justice so requires.” Fed. R. Crim. P. 33(a). When considering a
Rule 33 motion for a new trial, the district court is permitted to weigh the evidence,
disbelieve witnesses, and grant a new trial even when there is substantial evidence to
sustain the verdict. United States v. Campos, 306 F.3d 577, 579 (8th Cir. 2002). Rule 33
motions are disfavored, however, and should be granted “sparingly and with caution,”
because granting such relief is “reserved for exceptional cases in which the evidence

Appendix 10A

CASE 0:17-cr-00194-WMW-TNL Document 212 Filed 08/27/18 Page 2 of 5

preponderates heavily against the verdict.” United States v. Anwar, 880 F.3d 958, 970 (8th
Cir. 2018) (internal quotation marks omitted). When a defendant seeks a new trial based
on the alleged erroneous admission of prejudicial evidence, the district court may
quantitatively assess, in the context of other evidence presented at trial, “whether its
admission was harmless beyond a reasonable doubt.” Arizona v. Fulminante, 499 U.S.
279, 307-08 (1991). “Unless the district court ultimately determines that a miscarriage of
justice will occur,” the jury’s verdict must stand. Campos, 306 F.3d at 579.
Vera-Gutierrez argues that the Court erroneously admitted in evidence
Government’s Exhibits 113, 114, and 125 over his objections. Exhibit 113 is a chart of
telephone calls between Vera-Gutierrez and two of his co-defendants, Felipe Castro and
Everardo Cota-Preciado, made during the timeframe of the charged conspiracy. The chart
lists the date, time, duration, caller, and receiver of each call. Exhibit 114 includes five
maps annotated with cell tower information illustrating Castro’s location on specific dates
and at specific times during the charged conspiracy. Exhibit 125 includes four maps that
similarly are annotated with information illustrating Cota-Preciado’s location on specific
dates and at specific times during the charged conspiracy. Vera-Gutierrez argues that these
three exhibits were inadmissible because they contain hearsay and because the Government
did not present the underlying data that it relied on to prepare the charts or authenticate the
accuracy of the underlying data.
Even if Exhibits 113, 114, and 125 were inadmissible, their admission did not result
in a miscarriage of justice. The other evidence admitted at trial—including more than 120
other exhibits and the testimony of law-enforcement officers, Vera-Gutierrez’s coAppendix 11A

CASE 0:17-cr-00194-WMW-TNL Document 212 Filed 08/27/18 Page 3 of 5

defendants, and Vera-Gutierrez himself—largely duplicates the contents of the challenged
exhibits and overwhelmingly supports the jury’s guilty verdict.
Vera-Gutierrez argues that Exhibit 113—the chart of telephone calls between VeraGutierrez, Castro, and Cota-Preciado—was essential to the Government’s case because it
contains the only evidence of communications between Vera-Gutierrez and Cota-Preciado
and it corroborates the frequent and substantial contact among the alleged co-conspirators.
But Exhibit 113 largely consists of information that is duplicative of information contained
in the 110 wiretap exhibits admitted in evidence. In addition, Castro and Vera-Gutierrez
testified about many of the intercepted conversations.

Although Vera-Gutierrez’s

testimony disputed the meaning and intent underlying some of the intercepted
conversations with Castro, his testimony did not dispute that the telephone calls occurred,
the time or duration of the calls, or that Castro was a party to the conversations. VeraGutierrez also did not dispute his contact, both direct and indirect, with Cota-Preciado.
These undisputed aspects of the intercepted telephone conversations comprise a majority
of the information in Exhibit 113. Because the record is replete with evidence of frequent
and substantial contact between Vera-Gutierrez and his alleged co-conspirators, the
admission of Exhibit 113 in evidence did not result in a miscarriage of justice.
Vera-Gutierrez also argues that Exhibits 114 and 125 were essential to the
Government’s case for at least two reasons—they provide direct physical evidence of the
location of Castro and Cota-Preciado at specific times to corroborate the alleged meetings
between the co-conspirators, and they demonstrate that Cota-Preciado went to VeraGutierrez’s house after the failed attempt to deliver the drugs. But the contents of Exhibits
Appendix 12A

CASE 0:17-cr-00194-WMW-TNL Document 212 Filed 08/27/18 Page 4 of 5

114 and 125 also are largely duplicative of other evidence. Castro testified about his trip
and the specific stops identified in Exhibit 114, including meetings between Castro and
Cota-Preciado. And the contents of multiple wiretap conversations corroborate Castro’s
testimony about these dates and locations. For example, Exhibits 26 through 33 and
Exhibits 60 through 66 include time-stamped discussions between Castro and CotaPreciado about directions and locations, including specific references to roads, landmarks,
and destinations. Defendant Maribel Torres’s testimony also corroborated the presence of
both Castro and Cota-Preciado at some of these locations. Other evidence proved that
Cota-Preciado went to Vera-Gutierrez’s house after the failed attempt to deliver the drugs.
Specifically, Torres testified that she and Cota-Preciado stopped at a house while they were
in Minnesota in January 2017; and Officer Burton Crary testified that he observed a white
Toyota Corolla with California license plates—which matches the description of CotaPreciado’s vehicle—parked in front of Vera-Gutierrez’s house on January 19, 2017.
Because the record contains an abundance of evidence demonstrating the locations of
Castro and Cota-Preciado at specific times, the admission of Exhibits 114 and 125 in
evidence did not result in a miscarriage of justice.
Moreover, when the foregoing evidence is viewed in the context of the other
evidence presented at trial, the record supports the jury’s guilty verdict. At trial, the
evidence demonstrated that Castro and Cota-Preciado conspired to transport 25 pounds of
methamphetamine to Minnesota during the same time that Vera-Gutierrez and Castro were
in frequent contact. Although the recorded conversations between Vera-Gutierrez and
Castro do not directly reference methamphetamine, Castro testified at length about the
Appendix 13A

CASE 0:17-cr-00194-WMW-TNL Document 212 Filed 08/27/18 Page 5 of 5

conspiracy, Vera-Gutierrez’s involvement in the conspiracy, and the meaning of the coded
language used in the intercepted conversations between Vera-Gutierrez and Castro. VeraGutierrez’s involvement with the conspiracy also is reasonably inferred from the
intercepted conversations when considered in light of their timing and their substance,
including but not limited to the use of code words commonly used for drugs and drug
transactions; vague discussions about money, numbers, and amounts; Vera-Gutierrez’s
impatience and concern that Castro and Cota-Preciado were making him “look bad” by
taking too long; and vague references about whether to store “them” or “it” in VeraGutierrez’s house.
In summary, the contents of Exhibits 113, 114, and 125 are largely duplicative
summaries of other testimony and exhibits admitted in evidence. Moreover, the other
evidence presented at trial overwhelmingly supports the jury’s guilty verdict. Even when
assuming without deciding that these three challenged exhibits were erroneously admitted
in evidence, their admission did not result in a miscarriage of justice and do not warrant a
new trial.
ORDER
Based on the foregoing analysis and all the files, records and proceedings herein, IT
IS HEREBY ORDERED that Defendant Jose Andres Vera-Gutierrez’s motion for a new
trial, (Dkt. 198), is DENIED.

Dated: August 27, 2018

s/Wilhelmina M. Wright
Wilhelmina M. Wright
United States District Judge
Appendix 14A

Appendix 15A

Appendix 16A

Appendix 17A

Appendix 18A

Appendix 19A

Appendix 20A

Appendix 21A

Appendix 22A

Appendix 23A

Appendix 24A

Appendix 25A

Appendix 26A

Appendix 27A

Appendix 28A

Appendix 29A

Appendix 30A

Appendix 31A

Appendix 32A

Appendix 33A

Appendix 34A

Appendix 35A

Date:

January 16, 2017

Session:

1893

Time:

5:28 p.m.

Duration:

00:00:58

Caller:

Felipe Castro Jr.
(213) 833-8495

Receiver:

Everardo Cota-Preciado
(602) 483-2611

Castro:

Hello. What was I going to say? Did that guy call you already?

Cota:

Hello. Hey.

Castro:

Huh? Hello. [Voices Overlap]

Cota:

[Smacks lips] [Aside: Darling ... ] Hang on, hang on. [Voices Overlap]

Castro:

Didn't the crazy "cholo" (thug) call you? He is acting crazy. I told him
"You know what? I don't want you stressing me out more than what I
already fucking am." [Voices Overlap]
Hold on. [Aside: Go to the hamburger place, so this guy can follow you.
(Pause) Yes, yes.] Buddy, yes, uh, yes.
[Sighs] So, what are we going to do there, then? Well, the thing is that...
Huh? [Voices Overlap]
No, he told me to cancel everything and shit. I told him, "That's fine,
that's fine. The hell with it. The hell with it. Fuck it."
Oh yeah? That's right. Well, that's what I was contemplating. I told, I
told the guy, "You know what? Don't be stressing me out. You call
there, dude. Please." [Voices Overlap]
How do we do it. .. ? Well, we are going to do what we have to do, for sure,
buddy. What makes you think that because ... Not... [Voices Overlap]
That's right. Well, sounds good. So now ... I'm here. Alright, bye.

Cota:
Castro:
Cota:
Castro:

Cota:
Castro:
Cota:

... Just because one thing falls through doesn't mean everything will,
buddy. [Stammers] All right, then. My lady is [Stammers] going over
there so you can follow her. All right, bye.

r

GOVERNMENT
EXHIBIT

97

Appendix 36A
....

17-CR-194(WMW/TNL)

....

097

